No. 20A87

THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NY,
Applicant,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.

CERTIFICATE OF SERVICE
I, Anthony T. Caso, a member of the Bar of this Court and counsel for the
amicus on the accompanying Motion by Center for Constitutional Jurisprudence for
Leave to (1) File Amicus Curiae Brief, with Attached Brief in Support of Applicant,
and (2) to Do So without Ten Days’ Advance Notice to the Parties, certify that on this
17th day of November, 2020, I caused a copy of the motion and amicus brief to be
electronically per the parties’ consent on the following:
Randy Michael Mastro
Gibson, Dunn & Crutcher
LLP
200 Park Avenue
New York, NY 10166
rmastro@gibsondunn.com

Andrea Oser
Deputy Solicitor General
Office of the New York State
Attorney General
28 Liberty Street
New York, NY 10005
Andrea.Oser@ag.ny.gov

Counsel for applicant
Counsel for respondent
I further certify that all parties required to be served have been served.
/s/ Anthony T. Caso
Anthony T. Caso

